A1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0387p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-1965
JAMES M. PERNA, Plaintiff-Appellant,
v.
HEALTH ONE CREDIT UNION;
NATIONAL CREDIT UNION ADMINISTRATION;
NATIONAL CREDIT UNION ADMINISTRATION
BOARD, Defendants-Appellees.
Appeal from the United States District Court for
the Eastern District of Michigan at Detroit,
No. 2:19-cv-10001—Arthur J. Tarnow, District Judge.
Argued: February 6, 2020.
Decided and Filed: December 21, 2020.
Before: SUHRHEINRICH, DONALD, and MURPHY,
Circuit Judges
ARGUED: Cindy Rhodes Victor, KUS RYAN, PLLC,
Auburn Hills, Michigan, for Appellant.
Emily C. Palacios, MILLER, CANFIELD, PADDOCK &
STONE, P.L.C., Ann Arbor, Michigan, for Appellees.
ON BRIEF: Cindy Rhodes Victor, KUS RYAN, PLLC,
Auburn Hills, Michigan, for Appellant.
Emily C. Palacios, Brian Schwartz, MILLER, CANFIELD, PADDOCK & STONE, P.L.C., Ann Arbor,
Michigan, for Appellees.

A2
OPINION
MURPHY, Circuit Judge. In recent decades the
Supreme Court has cautioned courts not to mistake a
forfeitable claims-processing rule (such as a rule that
a party assert a claim within a specific time) for a nonforfeitable jurisdictional limit that deprives the court
of the power to adjudicate the claim. Fort Bend County
v. Davis, 139 S. Ct. 1843, 1848–50 (2019). Yet this cautionary note must not be overread: It does not permit
us to ignore a clear jurisdictional limit that Congress
has, in fact, imposed. Id. at 1850. And here, James
Perna seeks to litigate a claim that Congress has
“clearly” deprived us of jurisdiction to entertain. Id. (citation omitted).
Perna worked for Health One Credit Union, a federally insured but state-chartered credit union. A state
regulator found that Health One had become financially unsound and appointed the National Credit Union Administration Board, a federal entity, as Health
One’s liquidator. The Board terminated Perna’s employment. Perna has since sought damages in many
ways, from filing a complaint with a state agency, to
asserting a claim with the Board, to conducting an arbitration with an arbitration agency. In this suit, Perna
seeks to modify the arbitration award by making the
Board liable on it. But the Federal Credit Union Act
provides that “no court shall have jurisdiction over”
claims against covered credit unions asserted outside
its exclusive framework. 12 U.S.C. § 1787(b)(13)(D).
The district court thus held that it lacked jurisdiction
over Perna’s suit. We agree, although we clarify that

A3
the court should have dismissed this suit for lack of
subject-matter jurisdiction, not granted summary
judgment to the defendants.
A complex overlay of federal law on top of state law
applies to Michigan credit unions that are federally insured. First up is state law. The Michigan Credit Union
Act governs most credit unions operating within the
state. See Mich. Comp. Laws 490.101–.601. Michigan
law places primary regulatory responsibility over
these entities in the Director of the Department of Insurance and Financial Services (the “Director”). Id.
§§ 490.102(n)–(o), .201(1). This law includes many
rules tailored to Michigan-chartered credit unions.
Among them, the Director must inspect the financial
health of these state credit unions every 18 months. Id.
§ 490.207(1).
When the Director concludes that a Michigan
credit union “is in an unsafe or unsound condition,” the
Director may appoint a conservator (to manage the
credit union’s affairs) or ask a state court to appoint
a receiver (to liquidate the credit union). Id.
§ 490.232(1). A liquidating receiver has the power to
control the credit union’s property, oversee its business, and ultimately dissolve the entity. Id.
§§ 490.231(1), .233–35. Michigan law permits the Director to appoint a federal agency as the receiver,
which then incorporates “the receivership procedures
of the federal agency[.]” Id. § 490.231(2). If the Director
opts to initially appoint a conservator, the conservator
has the same powers as a receiver except for the liquidation power. Id. § 490.242(1). After the conservator

A4
has managed the credit union, the Director will decide
whether to return it to normal operations or apply for
a receiver to liquidate it. Id. § 490.245.
Next up is federal law. The Federal Credit Union
Act governs federally chartered credit unions and
state-chartered credit unions that participate in a federal insurance program like the well-known program
for banks. See 12 U.S.C. §§ 1751–1795k. Federal law
places primary regulatory responsibility for covered
credit unions in the National Credit Union Administration, an agency managed by the National Credit
Union Administration Board (the “Board”). Id.
§ 1752a(a). The Board has many oversight duties for
federally chartered credit unions. See, e.g., id. § 1766;
cf. id. § 1771(a)(4). And once state credit unions opt to
receive federal insurance, they become subject to many
similar regulations. See, e.g., id. §§ 1781(a)–(b)(2),
1785–86.
If a federally insured state credit union becomes
financially insecure, the Board has the power to appoint itself as conservator or liquidating agent. See id.
§§ 1786(h)(1), 1787(a)(3). Before taking that action,
however, the Board must seek input from the credit union’s state regulator. See id. §§ 1786(h)(2), 1787(a)(3),
1790d(l). When acting as a conservator or liquidating
agent, the Board must manage the credit union and
take control of its assets. Id. §§ 1786(h)(1), 1787(b)(2).
Federal law also gives the Board the power to repudiate any of the credit union’s contracts if the Board finds
that they would be “burdensome.” Id. § 1787(c).

A5
When the Board acts as a credit union’s “liquidating agent,” it has the power to resolve “claims” against
the credit union in accordance with a statutory framework. Id. § 1787(b)(3)(A). Creditors have a certain period to file claims from the date that the Board gives
them notice, id. § 1787(b)(3)(B), and the Board may approve or deny them, id. § 1787(b)(5)(B), (D). When the
Board denies a claim, the claimant has various routes
to judicial review. Id. § 1787(b)(6)(A)(ii), (7)(A). Outside
the specified routes, though, “no court shall have jurisdiction over” claims seeking the credit union’s assets or
challenging its actions. Id. § 1787(b)(13)(D).
B
This case concerns the now-defunct Health One
Credit Union, a Michigan-chartered credit union that
was federally insured. Initially hired in 1971, James
Perna served as Health One’s general manager for over
40 years. Perna signed a three-year employment agreement with Health One in 2009. This agreement contained an arbitration clause requiring Health One and
Perna to arbitrate any disputes arising out of it. The
parties twice renewed the contract, and it was set to
expire at the end of 2015.
But Perna did not make it through that term. On
May 16, 2014, the Michigan Director concluded that
Health One had been operating in an “unsafe and unsound condition.” See Mich. Comp. Laws §§ 490.232(1),
.241(1). The Director appointed the federal Board as
Health One’s conservator. The same day, the Board

A6
decided that Health One’s contract with Perna was
burdensome, repudiated his contract, and terminated
his employment. See 12 U.S.C. § 1787(c)(1).
Health One’s financial condition continued to deteriorate, so the Director asked a state court to appoint
a receiver. In December 2014, the court issued an order
appointing the Board as receiver. (Technically, the
court appointed the National Credit Union Administration rather than its Board, as the court glossed
over the distinction between this federal agency and
its managing entity. 12 U.S.C. § 1752a(a). But neither
party suggests that this naming difference matters to
any issue in this case.) The same day that the Board
was appointed as receiver, it sold Health One’s assets
to the New England Federal Credit Union.
C
After the Board repudiated Perna’s contract, he
pursued many routes seeking compensation from
Health One or the National Credit Union Administration. All have come up short.
First, in October 2014, Perna filed a claim for unpaid benefits and expenses with the Michigan Department of Licensing and Regulatory Affairs. This agency
dismissed Perna’s claim without considering the merits. It reasoned that Perna’s employment contract directed him to arbitrate disputes, and the agency’s
regulations required it to dismiss claims subject to
arbitration.

A7
Second, in May 2015, Perna submitted a claim to
the Board under the claims-processing rules that apply
when the Board acts as a credit union’s liquidating
agent. 12 U.S.C. § 1787(b)(5). Perna requested the
benefits and expenses that he had sought with the
state agency and the unpaid wages for the remainder
of his contract term. The Board denied his claim as untimely because its notice to Health One’s creditors required them to file claims by March 2015. Id.
§ 1787(b)(5)(C)(i). Perna moved for reconsideration, arguing that he fell within a safe harbor to this time limit
for creditors who lacked notice. Id. § 1787(b)(5)(C)(ii).
In February 2016, the Board denied Perna’s claim because he had received actual notice of its appointment.
Third, over two years later in April 2018, Perna
invoked his contract’s arbitration clause to file a contract claim for unpaid wages and benefits with the
American Arbitration Association. He named Health
One and the National Credit Union Administration as
defendants. Counsel for the defendants refused to participate. Because counsel had been notified, an arbitrator concluded that the arbitration could proceed. Perna
and a former Health One board member testified at a
hearing. The arbitrator found that Health One’s firing
of Perna had been “without cause” and triggered
Perna’s right to severance pay under the contract. The
arbitrator awarded him $315,645.02. Yet this was a
Pyrrhic victory. The arbitrator also found that this
decision could bind only Health One (a defunct entity),
not the National Credit Union Administration. He
reasoned that the Board’s role as Health One’s

A8
conservator at the time of Perna’s firing had not made
it a substitute party to the contract.
Fourth, in November 2018, Perna sued Health One
and the National Credit Union Administration in state
court, relying on state arbitration laws and court rules.
Perna sought to confirm its award against Health One
and modify the award by making the National Credit
Union Administration subject to it. The defendants removed the suit to federal court, and the district court
added the Board as a defendant.
The district court granted summary judgment to
the defendants. Perna v. Health One Credit Union,
2019 WL 3081068, at *6 (E.D. Mich. July 15, 2019). It
gave both a jurisdictional reason and a merits reason.
As for jurisdiction, it relied on the claims-processing
rules in 12 U.S.C. § 1787(b). Section 1787(b) made clear
that, aside from its rules, courts lacked jurisdiction
over any claim for payment from a credit union’s assets. Id. § 1787(b)(13)(D). The court found Perna’s suit
to be such a claim. Perna, 2019 WL 3081068, at *3. As
for the merits, Perna sought to modify the arbitration
award on the ground that the arbitrator mistakenly
ruled that the Board did not become Health One’s successor. Even if the arbitrator was wrong, the court reasoned, this mistake would not provide a basis to
overturn his decision. Id. at *4. After the court denied
Perna’s motion for reconsideration, Perna appealed.

A9
II
At the outset, we must express doubt over whether
the Board could remove this suit under the statutes on
which it relied. Although neither side raised an objection to removal, we have an independent duty to assure
ourselves of the district court’s jurisdiction. See In re
DePuy Orthopaedics, Inc. ASR Hip Implant Prods.
Liab. Litig., 953 F.3d 890, 893–94 (6th Cir. 2020); 14C
Charles Alan Wright et al., Federal Practice & Procedure § 3739.1, at 775–76 (4th ed. 2018). A defendant
may remove to federal court “any civil action brought
in a State court of which the district courts of the
United States have original jurisdiction.” 28 U.S.C.
§ 1441(a). The Board’s notice of removal relied on three
jurisdictional statutes: a statute for suits involving the
Board, 12 U.S.C. § 1789(a)(2), the federal-question
statute, 28 U.S.C. § 1331, and the federal-officer removal statute, 28 U.S.C. § 1442(a)(1). It is debatable
whether these statutes apply here.
Start with the Board’s specific jurisdictional statute. It contains a broad grant of jurisdiction to district
courts for suits involving the Board. 12 U.S.C.
§ 1789(a)(2). It next allows the Board to remove any
such suit to federal court. Id. But it then includes an
exception to this removal power: A state “suit to which
the Board is a party in its capacity as liquidating agent
of a State-chartered credit union and which involves
only the rights or obligations of members, creditors,
and such State credit union under State law shall not
be deemed to arise under the laws of the United
States.” Id. Perna’s suit may well fall within this

A10
exception. The Board is a party to Perna’s suit “in its
capacity as liquidating agent of ” Health One. Perna’s
suit next might involve only “rights” and “obligations”
under “State law” because he alleges a right to modify
the arbitration award under Michigan arbitration law.
Perna also might be characterized as a “creditor” of
Health One in the word’s “broad sense,” which could
cover anyone who asserts “any legal liability upon a
contract” against another. Black’s Law Dictionary 332
(5th ed. 1979). On the other hand, the word “creditor”
could be defined narrowly as a “person to whom a debt
is owing,” Black’s, supra, at 332, a definition that might
exclude a claimant like Perna who has yet to prove his
claim. Cf. Wright v. Oakland Mun. Credit Union, 2011
WL 2437370, at *3 (N.D. Cal. June 17, 2011); see also
Castleberry v. Goldome Credit Corp., 408 F.3d 773, 785
(11th Cir. 2005).
Perhaps the federal-question statute provides an
easier path for removal? No. It gives district courts
“original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United
States.” 28 U.S.C. § 1331. It is not clear why Perna’s
suit “arises under” federal law. The Board argues that
the suit meets this element because Perna relies on the
state court’s receivership order as the basis for its liability, and that order authorized the Board to use its
powers under the Federal Credit Union Act. “Under
the longstanding well-pleaded complaint rule, however, a suit ‘arises under’ federal law ‘only when the
plaintiff ’s statement of his own cause of action shows
that it is based upon [federal law].’ ” Vaden v. Discover

A11
Bank, 556 U.S. 49, 60 (2009) (quoting Louisville &
Nashville R.R. Co. v. Mottley, 211 U.S. 149, 152 (1908)).
Here, Perna’s suit is based on state arbitration law. And
even if the Board seeks to invoke its federal powers as
a defense, such a defense would generally not show
that a suit arises under federal law. See Franchise Tax
Bd. v. Constr. Laborers Vacation Tr., 463 U.S. 1, 10–11
(1983).
Maybe the federal-officer removal statute allows
for easier answers? No again. It says that “[t]he United
States or any agency thereof ” may remove any “civil
action” that is brought against it in state court “relating to any act under color of such office.” 28 U.S.C.
§ 1442(a)(1). The Board argues that it may invoke this
statute because the statute covers all federal agencies.
But things are not so simple. If the Board is correct
that it may rely on § 1442(a)(1) whenever 12 U.S.C.
§ 1789(a)(2)’s exception to removal would prevent the
Board from removing a suit, what is left of that exception? Anytime a plaintiff relied on the exception, the
Board could simply remove the suit under this general
removal statute. But the specific typically governs the
general. So perhaps § 1789(a)(2) should be read as the
Board’s exclusive party-based route to removal. Cf.
Preferred Care of Del., Inc. v. Estate of Hopkins, 845
F.3d 765, 769 (6th Cir. 2017).
In the end, we only highlight these jurisdictional
issues for future cases. The district court found that it
lacked jurisdiction over Perna’s suit for a more obvious
reason: Apart from its comprehensive review scheme,
the Federal Credit Union Act divests all courts of

A12
jurisdiction over claims involving the assets of covered
credit unions. And we have “discretion to address jurisdictional issues ‘in any sequence we wish.’ ” In re 2016
Primary Election, 836 F.3d 584, 587 (6th Cir. 2016) (citation omitted); see Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574, 583–85 (1999); 14C Wright, supra,
§ 3739.1, at 796–97. So we may safely leap ahead to the
district court’s jurisdictional rationale without resolving these preliminary jurisdictional questions.
III
A
After the savings and loan crisis of the 1980s, Congress passed the Financial Institutions Reform, Recovery, and Enforcement Act of 1989, Pub. L. No. 101-73,
103 Stat. 183. This Act amended the Federal Credit
Union Act (among other laws) by creating an exclusive
framework through which creditors must pursue their
claims against covered defunct credit unions. See 103
Stat. at 530–37 (adopting 12 U.S.C. § 1787(b)). This
framework gets triggered when the Board acts as the
liquidating agent of a “closed credit union[.]” 12 U.S.C.
§ 1787(b)(3)(B). The Board must “publish a notice to
the credit union’s creditors” and mail a similar notice
to known creditors requiring them to present their
claims to the Board within a certain time (which can
be no shorter than 90 days from the date of the notice).
Id. § 1787(b)(3)(B)(i), (C). Once a creditor submits a
claim to the Board, the Board has 180 days to resolve
it. Id. § 1787(b)(5)(A)(i), (B), (D). If a creditor has

A13
already sued the credit union at the time that the
Board becomes its liquidating agent, the Board may
also ask the relevant court for a 90-day stay. Id.
§ 1787(b)(12).
When the Board denies a claim, a creditor may
choose between two avenues of further review. The
creditor may request an administrative hearing with
the Board and obtain review of the Board’s final decision under the Administrative Procedure Act. Id.
§ 1787(b)(6)(A)(ii), (7)(A). Or the creditor may skip this
step and immediately bring suit (or continue a prior
suit) on the claim. Id. § 1787(b)(6)(A)(ii). The creditor
must choose either path quickly: It must request review within 60 days from the sooner of the Board’s denial of the claim or the end of the 180-day period that
the Board had to resolve it. Id. § 1787(b)(6)(A)(i)–(ii). If
the creditor pursues neither path within that period,
“the claim shall be deemed to be disallowed . . . as of
the end of such period, such disallowance shall be final,
and the claimant shall have no further rights or remedies with respect to such claim.” Id. § 1787(b)(6)(B).
(The law separately establishes an expedited review
process for creditors that have security interests in the
credit union’s assets. Id. § 1787(b)(8)(C).)
Section 1787(b) creates the exclusive framework
for judicial review. A subparagraph divests courts of jurisdiction to consider claims against the credit union
in other ways:
Except as otherwise provided in this subsection, no court shall have jurisdiction over—

A14
(i) any claim or action for payment from,
or any action seeking a determination of
rights with respect to, the assets of any credit
union for which the Board has been appointed
liquidating agent, including assets which the
Board may acquire from itself as such liquidating agent; or
(ii) any claim relating to any act or
omission of such credit union or the Board as
liquidating agent.
Id. § 1787(b)(13)(D). Without this subparagraph,
§ 1787(b)’s framework might resemble the type of exhaustion mandate that the Supreme Court has recently treated as a nonjurisdictional (and forfeitable)
claims-processing rule. See, e.g., Fort Bend County v.
Davis, 139 S. Ct. 1843, 1848–50 (2019); EPA v. EME
Homer City Generation, L.P., 572 U.S. 489, 511–12
(2014).
But § 1787(b)(13)(D)’s text shows that it is no mere
claims-processing rule. Congress has “clearly” established that this restriction counts “as jurisdictional” by
expressly labeling it as such. Fort Bend County, 139
S. Ct. at 1850 (quoting Arbaugh v. Y & H Corp., 546
U.S. 500, 515–16 (2006)).
Caselaw in an analogous context supports our
jurisdictional reading of § 1787(b)(13)(D). The Financial Institutions Reform, Recovery, and Enforcement
Act created a similar claims-processing framework
for liquidating banks administered by the Federal
Deposit Insurance Corporation (“FDIC”). 12 U.S.C.
§ 1821(d)(3)–(8). This similar banking framework

A15
contains a nearly identical provision that deprives
courts of “jurisdiction over” certain claims involving
liquidating banks. Id. § 1821(d)(13)(D). And many circuit courts have read § 1821(d)(13)(D)’s text as limiting
their subject-matter jurisdiction. See Dernis v. Amos
Fin., 701 F. App’x 449, 454–56 (6th Cir. 2017); Village
of Oakwood v. State Bank & Tr. Co., 539 F.3d 373, 385–
86 (6th Cir. 2008); see also MTB Enters., Inc. v. ADC
Venture 2011-2, LLC, 780 F.3d 1256, 1258–59 (9th Cir.
2015); Miller v. FDIC, 738 F.3d 836, 840–47 (7th Cir.
2013); Acosta-Ramirez v. Banco Popular de Puerto
Rico, 712 F.3d 14, 20 (1st Cir. 2013); Tellado v. IndyMac
Mortg. Servs., 707 F.3d 275, 279–81 (3d Cir. 2013);
Home Cap. Collateral, Inc. v. FDIC, 96 F.3d 760, 762–
64 (5th Cir. 1996); Tillman v. Resolution Tr. Corp., 37
F.3d 1032, 1036 (4th Cir. 1994); Astrup v. Resolution Tr.
Corp., 23 F.3d 1419, 1421 (8th Cir. 1994) (per curiam).
The same is true of the similar provision in this case.
Compare 12 U.S.C. § 1787(b)(13)(D), with id.
§ 1821(d)(13)(D).
Does Perna’s claim fall within this jurisdictionstripping provision? The provision’s first clause fits
Perna’s suit like a glove. Id. § 1787(b)(13)(D)(i). Was
the Board “appointed liquidating agent” of Health
One? Id. Yes, it was appointed in December 2014. Is
Perna’s suit an “action for payment from” the “assets”
of Health One? Id. Yes, Perna alleges that Health One
owes him $315,645.02 in severance pay and related
damages because it breached his contract by firing
him. And Perna sued the National Credit Union

A16
Administration because it took title to the Health One
assets that he seeks. Cf. Acosta-Ramirez, 712 F.3d at
21.
Indeed, Perna himself believed at one time that
§ 1787(b)’s exclusive claims-processing framework
applied to his claim against Health One. After all, he
asserted a claim with the Board under that very
framework in May 2015. In February 2016, the Board
denied his claim because it was untimely under
§ 1787(b)(5)(C). If Perna sought to pursue this claim
further, he could have requested administrative review or filed suit within 60 days. 12 U.S.C.
§ 1787(b)(6)(A)(ii). But Perna did neither. He instead
waited two years to pursue arbitration. That choice
came too late. Id. § 1787(b)(6)(B); cf. Miller, 738 F.3d at
845–46. And arbitration was the wrong forum. See 12
U.S.C. § 1787(b)(6)(A)(ii); cf. MTB Enters., 780 F.3d at
1259. Because Perna pursues his claim against Health
One in a manner that does not fall within § 1787(b)’s
exclusive framework, the district court lacked “jurisdiction” to adjudicate the claim. 12 U.S.C.
§ 1787(b)(13)(D).
B
Perna’s response? He does not dispute that
§ 1787(b)(13)(D) would bar his claim if Health One
were covered by § 1787(b)’s framework. But he argues
that this framework applies only when the Board liquidates a federally chartered credit union, not when it

A17
liquidates a federally insured state-chartered credit
union like Health One. Perna is mistaken.
Section 1787(b)(13)(D) covers all claims seeking
“the assets of any credit union for which the Board
has been appointed liquidating agent.” Id.
§ 1787(b)(13)(D)(i) (emphasis added). Health One is
such a credit union. And many surrounding provisions
confirm that § 1787(b)’s framework applies when the
Board acts as the liquidating agent of an insured statechartered credit union. To name a few, § 1787(a)(3) indicates that the Board “may close any credit union for
liquidation,” but requires it to cooperate with state regulators “in the case of a State-chartered insured credit
union[.]” 12 U.S.C. § 1787(a)(3) (emphasis added). Similarly, § 1786(h) allows the Board to act as a conservator of an insured state-chartered credit union in
certain circumstances. Id. § 1786(h)(1)(A). This subsection later indicates that, “in the case of an insured
State-chartered credit union,” the Board may run the
business as conservator “until such time” “as such
credit union is liquidated in accordance with the provisions of section 1787 of this title.” Id. § 1786(h)(5)(C)
(emphasis added). When, by contrast, subsections in
§ 1787 apply specifically to a “Federal credit union,”
they say so expressly. See 12 U.S.C. § 1787(a)(1)(A),
(a)(2).
For his contrary view, Perna relies on two subsections in § 1787. He first cites § 1787(j), which directs
the Board to accept an appointment as the liquidating
agent of an insured state-chartered credit union when
state regulators ask it to do so. Id. § 1787(j). The

A18
subsection gives the Board “all the rights, powers, and
privileges granted by State law to a liquidating agent
of a State-chartered credit union.” Id. According to
Perna, when the Board accepts an appointment from
state regulators (instead of appointing itself ), the
Board possesses only these state-law powers, not its
normal federal powers. In other words, Perna reads
§ 1787(j) to contract the Board’s authority. Yet the subsection could just as easily be read to enlarge that authority: It gives the Board both its normal federal
powers and any additional state-law powers. Regardless, this argument would not help Perna. Michigan
law incorporates “the receivership procedures of the
federal agency” when it gets appointed as receiver.
Mich. Comp. Laws § 490.231(2). Even under Perna’s
reading, then, § 1787(b)’s procedures apply in this case.
Perna next cites § 1787(c). It allows the Board to
repudiate a contract that a credit union has entered.
Id. § 1787(c)(1). Perna suggests that § 1787(b)’s claimsprocessing framework does not apply to claims brought
under § 1787(c)(3) for damages from such a repudiation. Yet § 1787(c)(3) merely limits the damages available to those seeking redress for a repudiated contract.
It nowhere exempts breach-of-contract claims from
§ 1787(b). Caselaw in the analogous banking context
supports this view. That statutory scheme also gives
the FDIC the ability to repudiate the contracts of liquidating banks. 12 U.S.C. § 1821(e). And another court
has held that § 1821(d)’s claims-processing framework
applies to breach-of-contract claims arising from a repudiation under § 1821(e). See Battista v. FDIC, 195

A19
F.3d 1113, 1117–19 (9th Cir. 1999); cf. Off. & Pro. Emps.
Int’l Union, Local 2 v. FDIC, 27 F.3d 598, 600 (D.C. Cir.
1994).
Unable to rely on § 1787, Perna turns to nearby
sections. He starts with the Board’s removal provision
discussed above: 12 U.S.C. § 1789(a)(2). As noted, its
exception excludes from the Board’s removal power
some state suits against the Board that involve only
state-law issues. When would this provision ever allow
plaintiffs to litigate in state court, Perna asks, if insured state-chartered credit unions were subject to
§ 1787(b)’s framework for liquidating credit unions?
Fair point. But our caselaw in the analogous banking
context provides the answer. Oftentimes a party might
file a suit before the Board gets appointed receiver and
so before § 1787(b)’s claims-processing rules get triggered. In that scenario, the preexisting court continues
to have jurisdiction even after the appointment (subject to any potential stay). Id. § 1787(b)(12); see In re
Lewis, 398 F.3d 735, 739–46 (6th Cir. 2005); Holmes
Fin. Assocs., Inc. v. Resolution Tr. Corp., 33 F.3d 561,
566–69 (6th Cir. 1994). We thus need not depart from
§ 1787(b)’s text to give meaning to § 1789(a)(2)’s exception to the Board’s authority to remove state-law suits.
Perna also cites a provision that allows a federal
credit union to become a state-chartered credit union,
in which case the state-chartered credit union “shall no
longer be subject to any of the provisions of this chapter.” 12 U.S.C. § 1771(a)(4). This language shows that a
state-chartered credit union is not automatically subject to the Federal Credit Union Act. But once such a

A20
credit union decides to obtain federal insurance (as
Health One did), it becomes subject to the federal laws
that govern federally insured state credit unions, including § 1787(b).
Running out of legal points, Perna makes two factual points. He notes that his suit challenges the
Board’s action in repudiating his contract and that the
Board took this action when it was Health One’s conservator, not its receiver. That is beside the point. When
the Board was later appointed as the liquidating agent,
it triggered § 1787(b)’s claims-processing framework.
And this framework applies to all claims against a defunct credit union whether or not the claim arose before the Board was appointed as the credit union’s
liquidating agent. See, e.g., 12 U.S.C. § 1787(b)(3)(B)–
(C); cf. Tellado, 707 F.3d at 280–81. Nothing in the text
suggests that the framework applies only to claims accruing after that appointment.
Perna also argues that the Board did not send
him the statutorily required notice triggering the
deadline to file a claim under § 1787(b). See 12 U.S.C.
§ 1787(b)(5)(C)(ii). Maybe not. But he should have litigated his alleged lack of notice through the procedures
that § 1787(b) permits—by suing within 60 days. Id.
§ 1787(b)(6)(A)(ii). Section 1787(b)(13)(D) prevents
him from raising this challenge to the Board’s decision
years after the fact.
***
We conclude with two loose ends. The first: the
merits. Perna spends much of his briefing explaining

A21
why the district court should have confirmed and modified the arbitrator’s award under Michigan law. Because we lack subject-matter jurisdiction over Perna’s
suit, however, we cannot consider his merits arguments. See Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 94 (1998). To do so would carry us “beyond the
bounds of authorized judicial action and thus offend[ ]
fundamental principles of separation of powers.” Id.
The second: the proper judgment. When a district
court finds that it lacks jurisdiction over a case that
has been removed from a state court, Congress has instructed that “the case shall be remanded” to the state
court. 28 U.S.C. § 1447(c). But our finding that the
district court lacks jurisdiction also means that the
state court does too. The Federal Credit Union Act’s jurisdiction-stripping provision indicates that “no court,”
including a state court, has “jurisdiction” over claims
subject to its framework. 12 U.S.C. § 1787(b)(13)(D).
Because a remand would be futile, should we dismiss
the suit outright? In another context, the Supreme
Court has expressed skepticism over whether
§ 1447(c)’s remand requirement contains such a “futility” exception. Int’l Primate Prot. League v. Adm’rs of
Tulane Educ. Fund, 500 U.S. 72, 89 (1991). Circuit
courts have thus often rejected these sorts of futility
arguments. See Hill v. Vanderbilt Cap. Advisors, LLC,
702 F.3d 1220, 1225–26 (10th Cir. 2012) (citing cases);
14C Wright, supra, § 3739.1, at 799–800. We, for example, remanded a suit to state court after we agreed with
the defendants that the plaintiffs lacked Article III
standing. See Coyne v. Am. Tobacco Co., 183 F.3d 488,

A22
496–97 (6th Cir. 1999). And there is something “anomalous” about the Board removing this suit to federal
court on the ground that the court had jurisdiction and
then arguing to the very same court that it lacks jurisdiction. Cf. Lapides v. Bd. of Regents of Univ. Sys. of Ga.,
535 U.S. 613, 619 (2002).
Nevertheless, we have also held that “we should
simply dismiss” a removed case when our holding conclusively establishes not just that we lack jurisdiction
but also that the state court lacks jurisdiction as well.
Estate of West v. U.S. Dep’t of Veterans Affs., 895 F.3d
432, 435 (6th Cir. 2018). In two cases involving the
analogous banking regime, we upheld district-court
decisions that refused to remand a suit previously removed by the FDIC because “no court had jurisdiction”
over the suit. Dernis, 701 F. App’x at 454; see Village of
Oakwood, 539 F.3d at 377, 384–87. Other courts have
likewise refrained from ordering a remand when finding a lack of jurisdiction under that analogous banking regime. See, e.g., Seaway Bank & Tr. Co. v. J&A
Series I, LLC, 962 F.3d 926, 932 (7th Cir. 2020); AcostaRamirez, 712 F.3d at 17, 21; Tellado, 707 F.3d at 278,
281; Tillman, 37 F.3d at 1034, 1036. And Perna does
not argue that we should remand to state court (rather
than dismiss) if we conclude that we lack jurisdiction.
Given these prior decisions and Perna’s failure to object to a dismissal, we will dismiss (not remand) this
case. Yet we remind litigants that state tribunals are
adequate venues for resolving federal questions. See
Tafflin v. Levitt, 493 U.S. 455, 458–59 (1990); U.S.
Const. art. VI, cl. 2.

A23
That said, the district court did not dismiss this
suit for lack of jurisdiction; it granted summary judgment to the defendants. A summary-judgment motion
generally “is an inappropriate vehicle for raising a
question concerning the court’s subject-matter jurisdiction[.]” 10A Charles Alan Wright et al., Federal
Practice & Procedure § 2713, at 269 (4th ed. 2016).
That motion seeks a ruling on the merits, not a ruling
that the court lacks the power to resolve the merits.
See Capitol Leasing Co. v. FDIC, 999 F.2d 188, 191 (7th
Cir. 1993) (per curiam); see also, e.g., Hayden v. Sec’y of
Dep’t of Veterans Affs., 1999 WL 313890, at *1 (6th Cir.
May 4, 1999); Capitol Indus.-EMI, Inc. v. Bennett, 681
F.2d 1107, 1118 (9th Cir. 1982). A party challenging the
court’s jurisdiction should instead file a motion to dismiss for lack of jurisdiction, a motion that may be filed
at any time. Fed. R. Civ. P. 12(b)(1), (h)(3). But the district court’s labeling error was harmless, and we may
modify the judgment to clarify its nature. 28 U.S.C.
§ 2106; see also, e.g., Ednacot v. Mesa Med. Grp., PLLC,
790 F.3d 636, 640 (6th Cir. 2015); Hadley v. Werner, 753
F.2d 514, 516 (6th Cir.1985) (per curiam).
In sum, we agree with the district court that it
lacked subject-matter jurisdiction. But we modify its
judgment from a grant of summary judgment to a dismissal for lack of subject-matter jurisdiction. As modified, we affirm.

A24
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 19-10001
JAMES M. PERNA,
Plaintiff,
v.
HEALTH ONE CREDIT UNION, ET AL.,
Defendants.
SENIOR U.S. DISTRICT JUDGE
ARTHUR J. TARNOW
U.S. MAGISTRATE JUDGE
ANTHONY P. PATTI
ORDER DENYING PLAINTIFF’S
MOTION FOR RECONSIDERATION [25]
(Filed Aug. 5, 2019)
Plaintiff, James Perna, brought this suit to enforce
an arbitration award against his former employer, Defendant Health One Credit Union (“HOCU”), and the
National Credit Union Administration Board (“NCUA
Board”), the federal agency that liquidated the credit
union. The parties filed cross-motions for summary
judgment, and, on July 15, 2019, the Court granted Defendants’ motion and denied the Plaintiff ’s motion.
[Dkt. # 23]. Plaintiff now moves the Court to reconsider
its July 15 holding and judgment.

A25
LEGAL STANDARD
The Local Rules for the Eastern District of Michigan provide as follows.
Generally, and without restricting the court’s
discretion, the court will not grant motions for
rehearing or reconsideration that merely present the same issues ruled upon by the court,
either expressly or by reasonable implication.
The movant must not only demonstrate a palpable defect by which the court and the parties and other persons entitled to be heard on
the motion have been misled but also show
that correcting the defect will result in a different disposition of the case.
L.R. 7.1(h) (3).
“A palpable defect is a defect which is obvious,
clear, unmistakable, manifest or plain.” Fleck v. Titan
Tire Corp., 177 F. Supp. 2d 605, 624 (E.D. Mich. 2001)
(internal citations and quotations omitted).
ANALYSIS
The Court based its July 15, 2019 ruling on two
grounds. The first was the Court’s limited jurisdiction to review a claim of action for payment from the
assets of a credit union over which the NCUA Board
had been appointed a liquidating agent. See 12 U.S.C.
§ 1787(b)(13)(D). The second was the Court’s limited
power under the Federal Arbitration Act to add a party
to an arbitration award and then enforce the award
against that party. Plaintiff now argues that Michigan

A26
law, not federal law, should control the outcome of this
suit, and that such a choice-oflaw shift would lead to a
holding in his favor.
First, the FCUA explicitly limits the Court’s ability to review NCUA Board action in cases such as this.
The NCUA liquidated HOCU’s assets according to
statute and denied Mr. Perna’s administrative claim
for unpaid wages and fringe benefits as untimely under § 1787(b)(5). § 1787(b)(5)(D) provides that “[t]he
liquidating agent may disallow any portion of any
claim by a creditor or claim of security, preference,
or priority which is not proved to the satisfaction of
the liquidating agent.” § 1787(b)(5)(E) continues, “[n]o
court may review the Board’s determination pursuant
to subparagraph (D) to disallow a claim. § 1787(b)(13)(D)
provides an even broader bar on judicial review of the
NCUA Board’s allocation of resources following a
credit union liquidation.
Mr. Perna in his motion for reconsideration makes
the same argument that was rejected by Mike Barton,
the President of the Asset Management and Assistance
Center of the NCUA. He argues now, as he argued
then, that his claim under § 1787(b)(5) was untimely
because he never received notice of the time to bring a
claim regarding his employment contract. (Dkt. 18-13,
Ex. 12). Mr. Barton denied the request for reconsideration because the exception for denial of late claims outlined in 12 U.S.C. § 1787(b)(5)(C)(ii) does not apply
where the claimant had notice that a liquidating agent
had been appointed. (Dkt. 18-14, Ex. 13). The Court has

A27
no statutory jurisdiction to review this administrative
determination.
Mr. Perna argues that this does not matter because the FCUA does not govern this case, as HOCU is
a state-chartered, not a federally-chartered, credit union. This is irrelevant.
First, even though HOCU is a state-chartered
credit union, and therefore not subject to the many provisions of Chapter 14 of Title 12 of the U.S. Code, which
governs Federal Credit Unions, it is insured by the National Credit Union Administration, and therefore is
subject to liquidation under the conditions outlined in
12 U.S.C. § 1787. That section provides, “[t]he board
may close any credit union for liquidation, and appoint
itself or another (including, in the case of a Statechartered insured credit union, the State official having jurisdiction over the credit union) as liquidating
agent of that credit union” if the credit union is critically undercapitalized. 12 U.S.C. § 1787(a)(3).
Sections 1787(a)(1) and 1787(a)(3) provide the respective avenues for Board liquidation of federallychartered and state-chartered credit unions. In the
case of state-chartered, federally insured credit unions,
the NCUA Board must comply with 12 U.S.C. § 1790d,
which details the corrective action that the NCUA
Board is empowered to make to protect its insurance
fund. Plaintiff ’s assertion that “the only portion of 12
U.S.C. § 1787 that applies to state-chartered credit unions is § 1787(j)” is false. See Dkt. 25, pg. 17. The provisions of § 1787 that limit a reviewing court’s authority

A28
apply to claims arising from federally insured, statechartered credit unions that have been liquidated by
the NCUA Board.
Second, even if the FCUA did not pertain to this
case at all, Plaintiffs have not provided any grounds to
modify the arbitration award to add the NCUA Board
as a party. Plaintiff argued in arbitration that the
NCUA Board should be added as a party by virtue of
its role as HOCU’s conservator. See Dkt. 17-14, Pl. Ex.
13, pg. 9-10. As explained in the July 15, 2019 Order,
the arbitrator rejected that argument, finding that the
NCUA Board never consented to arbitration. See Dkt.
23 pg. 9. Plaintiff argues that this was a “clear error of
law,” but he provides no statutory grounds—under
Michigan or federal arbitration law—for the Court to
modify the arbitrator’s decision even if it were convinced that the arbitrator erred.
Plaintiff has not pointed to any palpable defect in
the Court’s analysis of the Federal Arbitration Act’s requirements for the modification or vacation of arbitration awards. As Plaintiff observed in his motion for
summary judgment, “an arbitration award must fly in
the face of established legal precedent” for the court to
vacate an arbitration award.” Merrill Lynch, Pierce,
Fenner & Smith, Inc. v. Jaros, 70 F.3d 418, 421 (6th Cir.
1995). Modification of an award under 9 U.S.C. § 11(a)
applies only “where there was an evident material miscalculation of figures or an evident material mistake
in the description of any person, thing, or property
referred to in the award.” 9 U.S.C. § 11(a). Plaintiff
has demonstrated neither that Michigan’s Uniform

A29
Arbitration Act should apply, nor, if it did, that M.C.L.
§ 691.1700—which governs the modification or correction of awards—would require a result any different
from that reached under the Federal Arbitration Act.
CONCLUSION
Plaintiff has not demonstrated that the Court
erred by applying § 1787 of the FCUA to this case.
Even if he did, Plaintiff would not be entitled to relief,
for he has not articulated a legal basis to modify the
arbitration award and add the NCUA or the NCUA
Board as a party.
Accordingly,
IT IS ORDERED that Plaintiff ’s Motion for Reconsideration [25] is DENIED.
SO ORDERED.
s/ Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge
Dated: August 5, 2019

A30
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 19-10001
JAMES M. PERNA,
Plaintiff,
v.
HEALTH ONE CREDIT UNION, ET AL.,
Defendants.
SENIOR U.S. DISTRICT JUDGE
ARTHUR J. TARNOW
U.S. MAGISTRATE JUDGE
ANTHONY P. PATTI
OPINION AND ORDER DENYING
PLAINTIFF’S MOTION FOR SUMMARY
JUDGMENT AND GRANTING DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT
(Filed Jul. 15, 2019)
Plaintiff, James Perna, brings this suit to enforce
an arbitration award against his former employer, Defendant Health One Credit Union (“HOCU”), and the
National Credit Union Administration Board, the federal agency that liquidated that credit union. Though
state and federal law provides courts the authority to
enforce arbitration agreements, the Federal Credit
Union Act (“FCUA”), which governs this suit, severely
limits that authority. Because the FCUA trumps

A31
conflicting provisions of state and federal arbitration
law, Defendants will be granted summary judgment.
FACTUAL BACKGROUND
Mr. Perna began working for HOCU on January
16, 1971. (Compl. ¶ 7). His employment contract was
repeatedly renewed over the course of the intervening
years, and he eventually became the highest-ranking
employee at HOCU. (August 27, 2018 Arbitration
Hearing Tr., Dkt. 1-3, pg. 13).
On May 16, 2014, Annette Flood, the Director of
the Office of Credit Unions for Michigan’s Department of Insurance and Financial Services (“DIFS”), appointed the NCUA Board as the conservator of HOCU,
pursuant to M.C.L. 490.241. (Dkt. 1-4, Ex. C). Director
Flood based her decision on a confidential DIFS staff
memorandum, and found that it was necessary to appoint a conservator “to conserve the credit union’s assets, for the benefit of its members, depositors and
other creditors.” (Id.). That same day, Mr. Perna was
terminated by a letter signed by L.J. Blankenberger,
“Agent for the Conservator,” and the Director of Region
1 of the NCUA. The letter explained that Federal
Credit Union Act provided the Conservator the right to
repudiate any contract that is deemed burdensome
and whose repudiation would promote the orderly administration of the credit union’s affairs. (Dkt. 1-5, Ex.
D (citing 12 U.S.C. § 1787(c))). Mr. Perna’s employment
contract was deemed by the conservator to be one such
contract. (Id.).

A32
Following his sudden termination, Mr. Perna filed
for unpaid wages and fringe benefits with the Occupational Safety and Health Administration Wage and
Hours Program of the Michigan Department of Licensing and Regulatory Affairs (“LARA”). The NCUA
Board’s counsel, in a December 5, 2014 letter to Katherine Woods, an investigator at LARA, asserted that
“Mr. Perna’s tenure as CEO was not successful and ultimately led to Health One’s current financial predicament.” (Dkt. 18-6; Ex. 5). The letter also explained that
the Federal Credit Union Act gives the NCUA, in capacity as conservator, the discretion to repudiate burdensome contracts is such repudiation “will promote
the orderly administration of the credit union’s affairs.” (Id. citing 12 U.S.C. § 1787(c)(1)). Mr. Perna’s
claims for expenses and vacation pay, the NCUA reasoned, were barred because the contracts on which
those claims were based were repudiated (Id.). A January 29, 2015 letter from Ms. Woods explained that
LARA was rejecting Mr. Perna’s claim for fringe benefits because they were not allowed under the plain language of the employee handbook. (Dkt. 18-7, Ex. 6).
On July 1, 2015, Ms. Woods sent an amended letter
finding that since Mr. Perna’s employment agreement
with HOCU contained an arbitration clause, LARA
would take no further action in the case. (Dkt. 18-10,
Ex. 9). “Resolution of this claim has been preempted by
the contractual assent to arbitration by the American
Arbitration Association for the issues being claimed.”
(Id.).

A33
Meanwhile, on May 14, 2015, Mr. Perna, through
counsel, sent a letter to Conservator Blankenberger of
the NCUA Board making claims for unpaid wages and
fringe benefit pursuant to the severance agreement in
his employment contract. (Dkt. 18-11, Ex. 6). The letter
argued that since Mr. Perna was never apprised of time
limits for filing claims under 12 U.S.C. § 1787, he was
entitled to begin filing for an administrative claim pursuant to § 1787(b)(5). (Id.). On November 20, 2015,
Mike Barton, President of the Asset Management and
Assistance Center of the NCUA, denied Mr. Perna’s
claim as untimely. That letter cited NCUA Regulations
§ 709.6(a)(1) for the proposition that “failure to submit
a written claim [against the liquidated credit union]
within the time provided in the notice to creditors shall
be deemed a waiver of said claim and the claimant
shall have no further rights or remedies with respect
to such claim.” (Dkt. 18-12, Ex. 11).
Mr. Perna’s attorney responded to the November
20, 2015 denial letter with a December 9, 2015 letter
where he argued that the Repudiation of Agreement
and Termination of Employment notice that Mr. Perna
was given never included a notice of the time to bring
a claim regarding his employment contract. (Dkt. 1813, Ex. 12). Mr. Barton denied the request for reconsideration, observing that the exception for denial of late
claims outlined in 12 U.S.C. § 1787(b)(5)(C)(ii) does not
apply where the claimant had notice that a liquidating
agent had been appointed. (Dkt. 1814, Ex. 13).
Mr. Perna then scheduled an arbitration with the
American Association of Arbitrators (“AAA”). Neither

A34
representatives from HOCU nor from the NCUA
Board made an appearance in the arbitration, however, even after the arbitrator sent them letters that
the arbitration would be held in their absence. (Arb.
Hr’g Tr. 6). Rob Robine, a trial attorney with the National Credit Union Administration, responded with
an email to an AAA representative explaining that
“the employment agreement containing the arbitration clause was repudiated pursuant to federal law, in
connection with the conservatorship of Health One
Credit Union.” (Dkt. 18-22, Def. Ex. 21). The email
closed: “Please do not contact our office further regarding this arbitration.” (Id.). The arbitration hearing was
held on August 27, 2018, without the presence of the
Defendants or briefing on their behalf. (Arb. Hr’g Tr. 6).
Plaintiff paid Defendants’ share of the arbitration fee.
(Id. at 8).
On October 12, 2018, Arbitrator Samuel McCargo
issued an award for Mr. Perna and against HOCU in
the amount of $315,645.02. (Arbitration Award, Dkt. 13, Ex. 15). The Arbitrator observed that since his authority derived from the employment contract between
HOCU and Mr. Perna, he would not decide the NCUA
Board’s obligations to Mr. Perna. (Id.).
PROCEDURAL HISTORY
Plaintiff filed his case on November 7, 2018 in Macomb County Circuit Court. Defendants removed the
case to federal court on January 2, 2019 on the basis of
the FCUA’s grant of jurisdiction to civil suits in which

A35
the NCUA is a party. 12 U.S.C. § 1789(a)(2). [Dkt. # 1].
That same day, Defendants filed their Motion to Substitute Party [3]. After receiving further briefing from
both parties, the Court, on April 2, 2019, granted in
part and denied in part that motion, adding the NCUA
Board as a party, but declining to dismiss Defendants
HOCU and NCUA. [Dkt. # 14]. The Court denied Defendants’ Motion for Reconsideration on April 25, 2019.
[Dkt. # 16]. On May 3, 2019, Plaintiff filed a Motion for
Summary Judgment [17]. Defendants filed their own
Motion for Summary Judgment on May 17, 2019 [18].
Those motions are fully briefed and will be decided
without oral argument pursuant to Local Rule 7.1(f )
(2).
STANDARD OF REVIEW
Both parties bring their motions under FED. R.
CIV. P. 56. Summary judgment is appropriate “if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a judgment as a matter of law.” FED. R. CIV. P. 56(c). Movant
bears the burden of establishing that there are no genuine issues of material fact, which may be accomplished by demonstrating that the non-movant lacks
evidence to support an essential element of his case.
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). Nonmovant cannot rest on the pleadings and must show
more than “some metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co., Ltd., 475 U.S. at

A36
586-87. Non-movant must “go beyond the pleadings
and by . . . affidavits, or by the ‘depositions, answers to
interrogatories, and admissions on file,’ designate ‘specific facts showing that there is a genuine issue for
trial.” Celotex Corp., 477 U.S. at 324 (quoting Rule
56(e)); see also United States v. WRW Corp., 986 F.2d
138, 143 (6th Cir. 1993).
ANALYSIS
The Court lacks the jurisdiction to confirm the arbitration award against HOCU or enforce it against
the NCUA Board. Section 1787(b)(13)(C) of the FCUA
provides as follows.
Except as otherwise provided in this subsection,
no court shall have jurisdiction over—
(i) any claim or action for payment from, or
any action seeking a determination of rights
with respect to, the assets of any credit union
for which the Board has been appointed liquidating agent, including assets which the
Board may acquire from itself as such liquidating agent; or
(ii) any claim relating to any act or omission
of such credit union or the Board as liquidating agent.
12 U.S.C. § 1787(b)(13)(C).
Creditors seeking to recoup funds owed by a liquidated credit union must proceed through the statutory mechanism provided by the FCUA. See 12 U.S.C.

A37
§ 1787(b)(5)-(11). Plaintiff submitted such an administrative claim, and it was denied as untimely. (Dkt. 1812; Def. Ex. 11).
Plaintiff argues in response that the FCUA is only
“background authority” and that the “specific powers
granted to the NCUA Board as conservator were based
on Michigan law.” (Dkt. 21, pg. 7). He bolsters this argument by a citation that to 12 U.S.C. § 1787(j), which
provides that where the NCUA Board takes over a defunct credit union, “such liquidating agent shall possess all the rights, powers, and privileges granted by
State law to a liquidating agent of a State chartered
credit union.” 12 U.S.C. § 1787(j). The FCUA certainly
contemplates that the NCUA Board will act according
to state legal procedures when liquidating a distressed
credit union. This is not, however, a reason for the
Court to privilege state contract law over provisions in
the FCUA that explicitly limit its own jurisdiction.
That the NCUA Board acted with the Michigan Department of Insurance and Financial Services to effectuate the liquidation of HOCU according to state law
did not change the fact that the NCUA Board was exercising powers pursuant to federal statute. Both the
DIFS’s Order Appointing Conservator and the 30th Judicial Circuit Court’s Order Appointing Receiver make
clear that NCUA’s appointment as conservator and receiver are accomplished pursuant to the Federal Credit
Union Act, if also in addition to state law. The Court is
aware of no legal authority that a federal agency loses
its rights under its own enabling statute by opting to
enforce its rights in state court.

A38
The question then becomes whether, under the
Federal Arbitration Act (“FAA”), Plaintiff can enforce
his arbitration award against the NCUA Board, despite the FCUA.
As a starting point, this case does not create a
conflict between the two statutes because the arbitration award itself provides no relief against the
NCUA Board. HOCU no longer exists. If the court were
to grant full enforcement against HOCU, it would still
have to modify the arbitration award for Plaintiff to
receive a remedy.
The Opinion of the Arbitrator begins as follows:
First, the arbitrator notes that the National
Credit Union Administration (NCUA) became
the “Conservator” for Health One Credit Union on May 16, 2014; it did not become a
party to the Employment Agreement between Claimant and Health One. The only
parties to the Agreement before this Arbitrator are Claimant and Health One. While
NCUA became authorized to act on behalf of
Health One, it did not become a substituted
party by virtue of its role as “Conservator” for
Health One. Therefore, the Arbitrator has no
authority to resolve disputes under this Employment Agreement.
Dkt. 17-14; Pl. Ex. 13, pg. 9-10.
Plaintiff attempts to reargue before this Court
that NCUA is the successor-in-interest to HOCU. He
provides no reason, however, for why this designation

A39
would require modifying the award under 9 U.S.C. § 11
or vacating the award under 9 U.S.C. § 10. Only in his
Response brief does Plaintiff elaborate on the importance of the successor-in-interest designation, citing to an unpublished Michigan Court of Appeals case
for the unremarkable proposition that the NCUA
Board, in its capacity as a liquidating agent, can sue
on behalf of a liquidated credit union. See National
Credit Union Administration Board v. Woonton, 2016
WL 6905903 (Mich. Ct. App. Nov. 22, 2016). It is not
clear how the statutory authority to “sue and be sued”
which Woonton references could cause the NCUA
Board to be bound by arbitration clauses contracted
by the liquidated credit union.
Even if it were a mistake for the arbitrator not to
credit this argument (which it is not clear Plaintiff
briefed in arbitration), such a mistake would not
grounds for modification. 9 U.S.C. § 11(a), which Plaintiff cites as the statutory basis for the modification it
seeks, applies only “where there was an evident material miscalculation of figures or an evident material
mistake in the description of any person, thing, or
property referred to in the award.” Legal error is not
mentioned, and as the Plaintiff himself argued in his
brief, “an arbitration award must “fly in the face of
established legal precedent” for a court to find the
manifest disregard for the law required to vacate an
arbitration award under 9 U.S.C. § 10. (Dkt. 17, pg. 18,
citing Merrill Lynch, Pierce, Fenner & Smith, Inc. v. Jaros, 70 F.3d 418, 421 (6th Cir. 1995). No such established legal precedent is presented here.

A40
Plaintiff advances the contradictory positions that
the arbitration award is ironclad and unreviewable
when resisting Defendants’ attempts to vacate the
award, and malleable and reviewable when attempting
to add the NCUA Board as a party. His attempt to modify and then enforce the arbitration agreement must
fail.
Second, even if the FAA did dictate that the arbitration award should be enforced against the NCUA
Board, the FCUA would trump the FAA.
Like any statutory directive, the Arbitration
Act’s mandate may be overridden by a contrary congressional command. The burden is
on the party opposing arbitration, however, to
show that Congress intended to preclude a
waiver of judicial remedies for the statutory
rights at issue. If Congress did intend to limit
or prohibit waiver of a judicial forum for a particular claim, such an intent “will be deducible
from [the statute’s] text or legislative history,”
or from an inherent conflict between arbitration and the statute’s underlying purposes.
Shearson/Am. Exp., Inc. v. McMahon, 482 U.S. 220, 22527 (1987).
Courts that have considered the relationship between the FAA and the FCUA have found that the
§ 1787(b)(13)(C) abrogated the FAA when the NCUA
Board repudiated a contract with an arbitration provision. As one such court reasoned,

A41
The FCUA contains a detailed administrative
claims procedure, pursuant to which all creditors must submit claims. The purpose of the
statute is to afford plaintiff, an arm of the executive branch of the government, with the ability to assess and quickly disburse the funds due
to creditors of a defunct federal credit union.
To that end, the statute precludes judicial review until after the administrative claims procedure is complete. Presumably, this enables
plaintiff to assess the credit union’s assets
and fairly distribute any existing assets to the
creditors. At the same time, the administrative claims process provides a centralized system for addressing claims so that whatever
assets may remain can be preserved for the
benefit of all creditors. The Court finds an inherent conflict in this statutory scheme which
operates to benefit all creditors, with the FAA
which would essentially serve to place the
rights of creditors who have agreements containing arbitration provisions on different
footing than those unable to rely on arbitration provisions. In addition, requiring plaintiff
to defend creditor claims in arbitration would
defeat a primary purpose of the statute, i.e.,
centralizing the claims process and preserving the limited assets of the defunct credit union. Although it appears that defendant is the
only party seeking arbitration, it is possible
that many creditors of a federal credit union
could pursue arbitration. The Court finds that
Congress’s enactment of a statute with a comprehensive administrative claims process, together with a limitation on judicial review,

A42
inherently conflicts with the FAA. Accordingly, claims falling within the purview of the
FCUA may not be arbitrated.
Nat’l Credit Union Admin. Bd. v. Lormet Cmty. Fed.
Credit Union, No. 1:10 CV 1964, 2010 WL 4806794, at
*4 (N.D. Ohio Nov. 18, 2010); accord, People’s Trust Federal Credit Union v. National Credit Union Administration, No. CR 16-0611, 2016 WL 4491635 (D. New
Mexico Aug. 8, 2016).
Thus, even if Mr. Perna’s arbitration clause could
be modified to include the NCUA Board, the FCUA
would still bar enforcement against the NCUA Board.
CONCLUSION
Mr. Perna was denied relief against the NCUA
Board by LARA, by the NCUA, and by arbitration.
Even if the Court disagreed with the arbitrator’s decision not to exercise jurisdiction over the NCUA Board,
which it does not, the FAA doesn’t authorize the Court
to substitute its own judgment for that of the arbitrator. Even if, despite this, the Arbitration Award were
modified, the FCUA would still bar its enforcement.
Accordingly,
IT IS ORDERED that Plaintiff ’s Motion for Summary Judgment [17] is DENIED and Defendant’s Motion for Summary Judgment [18] is GRANTED.

A43
SO ORDERED.
s/ Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge
Dated: July 15, 2019

A44
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JAMES M. PERNA,

Case No. 19-10001

v.

SENIOR U.S. DISTRICT JUDGE
ARTHUR J. TARNOW

HEALTH ONE CREDIT
UNION, ET AL.,

U.S. MAGISTRATE JUDGE
ANTHONY P. PATTI

Plaintiff,

Defendants.

/

ORDER DENYING DEFENDANTS’
MOTION FOR RECONSIDERATION [15]
(Filed Apr. 25, 2019)
Plaintiff, James Perna, brought this suit to enforce
an arbitration award against his former employer, Defendant Health One Credit Union (“HOCU”), and the
federal agency appointed as its conservator and receiver. The parties dispute whether the proper Defendants are the National Credit Union Administration
(“NCUA”) and Health One Credit Union (“HOCU”),
which were named by the Plaintiff, or the National
Credit Union Administration Board (“NCUA Board”),
which Defendants moved to replace the other two defendants. Specifically, on January 2, 2019, the Defendants moved to replace HOCU and NCUA with the
NCUA Board “in its capacity as liquidating agency for
Health One Credit Union.” [Dkt. # 3].

A45
On April 2, 2019, the Court granted in part and
denied in part Defendants’ motion. [Dkt. #14]. NCUA
Board was joined as a party pursuant to FED. R. CIV.
P. 21, but the Court found no basis to remove the parties already named in Plaintiff ’s Complaint. Defendants now move the Court to reconsider its holding and
modify its joinder of the NCUA Board to reflect its limited role in the lawsuit as liquidating agent of HOCU.
The Local Rules of the Eastern District of Michigan
provide that a motion for reconsideration must show
that the court and the parties were misled by a “palpable defect.” See L.R. 7.1(h)(3).
Defendants argue that since the NCUA Board was
joined only by its own motion, it has the right to limit
the capacity in which it is sued. They cite no authority
for this proposition. Further, limiting the capacity in
which the NCUA Board is sued is inappropriate at this
stage of the litigation. 12 U.S.C. § 1787 provides that
the NCUA Board shall act as a liquidating agent for a
bankrupt or insolvent federal credit union. The Federal Credit Union Act gives the NCUA Board broad
powers to dispense with credit union assets in its capacity as liquidating agent. Nevertheless, in this case,
there is ambiguity as to the NCUA and/or the NCUA
Board’s roles as Conservator as HOCU and then as Receiver as HOCU, pursuant to Michigan state law. (See
Dkt. # 14 pg. 6).
The Court’s April 2, 2019 Order [14] discussed the
NCUA Board’s role as conservator and receiver, because those were the roles designated by Michigan’s
Department of Insurance and Financial Services and

A46
Ingham County Circuit Court. (Id. at pg. 2, 6). Presumably the NCUA Board sees these state law roles (arising from M.C.L. §§ 490.233 & 490.241) as part-andparcel of its federal statutory role as liquidating agent.
Nevertheless, the interplay between these roles, and
their concomitant statutory powers and obligations,
reaches the merits of the case.
This suit, though still at an early stage, seems to
turn on the power of one or more of the three defendants to terminate Plaintiff and then resist a contractual arbitration clause. Defendants have not shown a
palpable defect with the Court’s holding that the question of who possessed HOCU’s assets when, and how,
is better answered under a dispositive motion standard than a procedural joinder motion. (Mt. 14 pg. 8).
The question is even less well-suited for a motion for
reconsideration, in which the non-movant is not permitted to respond.
IT IS ORDERED that Defendants’ Motion for Reconsideration [15] is DENIED.
SO ORDERED.
s/ Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge
Dated: April 25, 2019

A47
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JAMES M. PERNA,

Case No. 19-10001

v.

SENIOR U.S. DISTRICT JUDGE
ARTHUR J. TARNOW

HEALTH ONE CREDIT
UNION, ET AL.,

U.S. MAGISTRATE JUDGE
ANTHONY P. PATTI

Plaintiff,

Defendants.

/

ORDER GRANTING IN PART AND DENYING IN PART
DEFENDANTS’ MOTION TO SUBSTITUTE PARTY TO
CORRECT NONJOINDER AND MISJOINDER [3]
(Filed Apr. 2, 2019)
Plaintiff, James Perna, brings this suit to enforce
an arbitration award against his former employer, Defendant Health One Credit Union (“HOCU”), and the
federal agency appointed as its conservator and receiver. The identity of that agency is in dispute, which
is the subject of this motion. Plaintiff maintains that it
sued the correct entity, the National Credit Union Administration (“NCUA”). Defendants contend that the
correct defendant would actually be the National
Credit Union Administration Board (“NCUA Board”).
FACTUAL BACKGROUND
Mr. Perna began working for HOCU on January
16, 1971. (Compl. ¶ 7). His employment contract was

A48
repeatedly renewed throughout this time, and he eventually became the highest-ranking employee at HOCU.
(August 27, 2018 Arbitration Hearing Tr., Dkt. 1-3, pg.
13).
On May 16, 2014, Annette Flood, the Director of
the Office of Credit Unions for Michigan’s Department
of Insurance and Financial Services (“DIFS”), appointed the NCUA Board as the conservator of HOCU,
pursuant to M.C.L. 490.241. (Dkt. 1-4, Ex. C). Director
Flood based her decision on a confidential DIFS staff
memorandum, and found that it was necessary to appoint a conservator “to conserve the credit union’s assets, for the benefit of its members, depositors and
other creditors.” (Id.). That same day, Mr. Perna was
terminated by a letter signed by L.J. Blankenberger,
“Agent for the Conservator,” and the Director of Region
1 of the NCUA. The letter explained that Federal
Credit Union Act provided the Conservator the right to
repudiate any contract that is deemed burdensome
and whose repudiation would promote the orderly administration of the credit union’s affairs. (Dkt. 1-5, Ex.
D (citing 12 U.S.C. § 1787(c))). Mr. Perna’s employment
contract was deemed by the conservator to be one such
contract, and it was repudiated. (Id.).
Following his sudden termination, Mr. Perna filed
for unpaid wages and fringe benefits with the Occupational Safety and Health Administration Wage and
Hours Program of the Michigan Department of Licensing and Regulatory Affairs (“LARA”), but was
told by counsel for Defendants and by LARA that the
state agency could not decide the issue because it was

A49
preempted by the arbitration clause in Mr. Perna’s employment agreement. (Compl. ¶¶ 59-60).
Mr. Perna then scheduled an arbitration with the
American Association of Arbitrators (“AAA”). Neither
representatives from HOCU nor from NCUA responded to notices of arbitration, however, even after
the arbitrator sent them letters that the arbitration
would be held in their absence. (Arb. Hr’g Tr. 6). The
arbitration hearing was held on August 27, 2018, without the presence of the Defendants or briefing on their
behalf. (Id.). Plaintiff paid Defendants’ share of the arbitration fee. (Id. at 8).
On October 12, 2018, Arbitrator Samuel McCargo
issued an award for Mr. Perna in the amount of
$315.645.02. (Dkt. 1-3, Ex. 15). The Arbitrator observed that since his authority derived from the employment contract between HOCU and Mr. Perna, he
would not decide NCUA’s obligations to Mr. Perna.
(Id.).
PROCEDURAL HISTORY
Plaintiff filed his case on November 7, 2018 in Macomb County Circuit Court. Defendants removed the
case to federal court on January 2, 2019 on the basis of
FCUA’s grant of jurisdiction to civil suits in which the
NCUA is a party. 12 U.S.C. § 1789(a)(2).1 [Dkt. 1]. That
1

The statute technically provides such jurisdiction to the
Board of the NCUA. The Court otherwise has jurisdiction under
28 U.S.C. § 1331, as the NCUA is an agency of the federal government.

A50
same day, Defendants filed their Motion to Substitute
Party [3]. That motion is now fully briefed. The Court
now finds the motions suitable for determination without a hearing in accord with Local Rule 7.1(f )(2).
STANDARD

OF

REVIEW

Defendants bring their motion under FED. R. Civ.
P. 19 & 21.
Courts evaluating motions brought under Rule 19
typically use a three-step analysis to determine whether
a case can proceed in the absence of a particular party.
See Keweenaw Bay Indian Community v. Michigan, 11
F.3d 1341, 1345 (6th Cir. 1993). First, the Court must
determine if the person or entity is a necessary party
under FED. R. CIV. P. 19(a), which provides as follows.
(1) Required Party. A person who is subject
to service of process and whose joinder will
not deprive the court of subject-matter jurisdiction must be joined as a party if:
(A) in that person’s absence, the court
cannot accord complete relief among existing parties; or
(B) that person claims an interest relating to the subject of the action and is so
situated that disposing of the action in
the person’s absence may:
(i) as a practical matter impair or impede
the person’s ability to protect the interest; or

A51
(ii) leave an existing party subject to a substantial risk of incurring double, multiple, or
otherwise inconsistent obligations because of
the interest.
FED. R. CIV. P. 19(a).
Second, if the entity is necessary, the Court asks
whether joinder will deprive it of subject matter jurisdiction. May v. Citimortage, 2013 U.S. Dist. LEXIS
175448 (E.D. Mich. Dec. 13, 2013) (citing Glancy v.
Taubman Centers, Inc. 373 F.3d 656, 666 (6th Cir.
2004). Third, if joinder is not feasible because it will
eliminate the Court’s ability to hear the case, it must
analyze the Rule 19(b) factors to determine if dismissal
is warranted. (Id.).
Rule 21 provides a remedy for the misjoinder of
parties. Harris v. Gerth, 2008 U.S. Dist. LEXIS 104921
(E.D. Mich. Dec. 30, 2008).
Misjoinder of parties is not a ground for dismissing an action. On motion or on its own,
the court may at any time, on just terms, add
or drop a party. The court may also sever any
claim against a party.
FED. R. CIV. P. 21.
Rule 21 was promulgated in order to obviate harsh
common law rules of misjoinder and nonjoinder. See,
e.g. Halladay v. Verschoor, 381 F.2d 100 (8th Cir. 1967)
(citing Kerr v. Compagnie De Ultramar, 250 F.2d 860,
864 (2d Cir. 1958).

A52
ANALYSIS
Defendants seek to replace HOCU and the NCUA
with the NCUA Board. They cite no caselaw at all, and
jump from Rule 21 to Rule 19 without analyzing the
interplay between the two rules or the legal basis for
their interpretation of the Rules. Plaintiffs in their response argue that Defendants waived their right to
contest the named defendants by failing to appear at
arbitration. They further argue that NCUA, not the
NCUA Board, is the receiver of HUCA.
The Court must first decide if the NCUA Board is
a necessary party to this action. The May 16, 2014
DIFS Order appointed the Board as the Conservator
of HOCU. That appointment was confirmed by L.J.
Blankenberger’s letter to DIFS Director Flood, on November 26, 2014, which appears to be sent in his capacity as a Regional Director of the NCUA. (Dkt. 1-7,
Ex. F). The close relationship between the two entities
is confirmed by the statutory scheme. See 12 U.S.C.
§ 1752a(a) (“There is established in the executive
branch of the Government an independent agency
to be known as the National Credit Union Administration. The Administration shall be under the
management of a National Credit Union Administration Board.”).
The confusion between the two entities seems to
have infected the procedural history of this case. The
December 12, 2014 Order by the Ingham County Circuit Court plainly appointed NCUA as receiver. It did
so after observing that “the DIFS Director entered an

A53
order appointing the National Credit Union Administration (NCUA) as Conservator for Health One
Credit Union based on its unsafe and unsound condition.” (Dkt. 1-6, Ex. E). This observation was technically incorrect, lending credence to Defendants’ theory
that the Circuit Court meant to appoint the NCUA
Board as Receiver (and transform the conservator into
a receiver). The Circuit Court issued its order pursuant
to Michigan’s Credit Union Act, M.C.L. § 490.233,
which requires court approval to create a receivership,
and the FCUA in general. The FCUA provides that the
NCUA Board is entrusted with the NCUA Insurance
Fund, which is the insurance fund that subjected
HOCU to the NCUA according to Director Flood’s Order, and is the fund available for assisting with the liquidation of insured credit unions (like HOCU). See 12
U.S.C. § 1783(a).
Ultimately, the question of liability apportioning
liability between the NCUA Board and the NCUA is a
factual question ill-suited for this stage of litigation. It
is apparent even at this early stage, however, that the
NCUA Board is an essential party. Referencing FED. R.
CIV. P. 19(a)(1)(B)(i-ii), the Court finds that the NCUA
Board certainly has an interest in this litigation. The
two subparts ((B)(i) and (B)(ii)) are read disjunctively,
and the NCUA Board will be a necessary party if its
absence either impedes its ability to protect that interest or exposes it to duplicative liability or inconsistent
obligations. Both these conditions are met. The Board
has a statutory interest in how its funds are allocated,
whether it properly allocated exercised its powers

A54
when it deemed Mr. Perna’s contract repudiated, and
the extent to which, if at all, it is subject to state or
federal arbitration law. Further, it would be inefficient
and unfair to sever the Board from the Administration
where both could face liability for the acts of HOCU’s
Conservator or Receiver.
Looking to the second and third steps of a Rule 19
analysis, the Court finds that the joinder of the NCUA
Board will not deprive it off subject-matter jurisdiction
or deprive it of the power to hear the case. There is no
need to continue to the Rule 19(b) weighing of equities
at this stage. NCUA Board will be joined as a party.
NCUA Board’s joinder does not provide a basis for
the dismissal of the other two Defendants, however.
Plaintiff has adequately pled, at least within the
meaning of a technical pleading Rule, that the NCUA
was involved in his termination. Whether NCUA, or
the NCUA Board, possesses or possessed HOCU’s assets is a question that can be answered, if necessary,
under a dispositive motion standard.
Accordingly,
IT IS ORDERED that Defendant’s Motion to
Substitute Party [3] is GRANTED IN PART AND
DENIED IN PART.
IT IS FURTHER ORDERED that the National
Credit Union Administration Board shall be joined as
a Defendant in this suit, pursuant to FED. R. Civ. P. 21.

A55
SO ORDERED.
s/ Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge
Dated: August 5, 2019

A56
Case No. 19-1965
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
January 26, 2021
DEBORAH S. HUNT, CLERK
JAMES M. PERNA,
Plaintiff-Appellant,
v.
HEALTH ONE CREDIT UNION; NATIONAL
CREDIT UNION ADMINISTRATION; NATIONAL
CREDIT UNION ADMINISTRATION BOARD,
Defendants/Appellees.
ORDER
Before: SUHRHEINRICH, DONALD, and MURPHY,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.

A57
Therefore, the petition is denied.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

